          CONTROLS OVER ACCOUNTABLE PROPERTY AT THE
                BALTIMORE FIELD DIVISION OF THE
               FEDERAL BUREAU OF INVESTIGATION

                            EXECUTIVE SUMMARY

       On July 7, 2003, Robert E. Stull, a former employee of the Federal
Bureau of Investigation (FBI) at the Baltimore Field Division (BFD) was
sentenced to one year in prison and ordered to pay restitution after pleading
guilty to the theft and sale of FBI photography equipment, valued at over
$167,000. In response to these events, the Office of the Inspector General
initiated this audit to assess the overall effectiveness of the BFD’s property
controls from procurement through disposal.

      The BFD is one of 56 FBI field divisions and is located in Baltimore,
Maryland. The BFD’s area of coverage extends across Maryland and
Delaware, and it maintains subsidiary offices, called resident agencies, in
smaller cities throughout both states. For fiscal year (FY) 2004, the BFD has
a total budget of about $3.3 million and currently employs about 400 people.
As of January 3, 2004, the BFD’s official property inventory contained 5,620
items with a total estimated acquisition cost of $22.8 million.

Property Management at the Baltimore Field Division

       The BFD’s central control over property is the FBI’s Property
Management Application, an automated property management system that
allows the FBI to track the location and history of specific property items.
The FBI has instituted a property threshold of $1,000 for the Property
Management Application, meaning that property with an acquisition cost of
less than $1,000 is generally not included in the system. However, certain
items of property are to be included in the Property Management Application
regardless of their cost.

       At the BFD, four supply technicians are responsible for the
identification and addition of new accountable property to the Property
Management Application, and nine property custodians are responsible for
maintaining certain categories of personal property. These property
custodians maintain control over: 1) automobiles, 2) computer equipment,
3) ET1, 4) firearms, 5) laboratory equipment, 6) office equipment and
fixtures, 7) photography equipment, 8) technical equipment, and word

      1
        The BFD uses the acronym ET to represent the term “electronics technician.” The
property area ET includes telecommunication and FM radio equipment.




                                          -i-
processing equipment. The property responsibilities of the property
custodians are collateral to their official duties; for example, the property
custodian for firearms is the firearm instructor at the BFD.

Audit Results

       We reviewed the BFD’s compliance with the regulations, policies, and
procedures that are relevant to property management and examined the
effectiveness of controls to account for and safeguard accountable property.
We found that while overall controls appear adequate to account for and
safeguard property, we found weaknesses in the following areas:

•     The FBI’s definition of accountable property omits certain property
      from inclusion in the Property Management Application.

•     Property excluded from the Property Management Application is less
      likely to be located, even if it is tracked separately by a property
      custodian.

•     Credit card purchases can be delivered directly to the cardholder,
      bypassing the supply technician who would identify and record
      accountable property in the Property Management Application.

•     The BFD does not have adequate controls over the approval of credit
      card purchases.

      Following is a summary of the results of our audit.

FBI Definition of Accountable Property is Inadequate

      The Justice Property Management Regulations require bureaus to
establish personal property accountability systems and define controlled
personal property as non-capitalized personal property that because of its
nature must be subject to controls that are more stringent. According to the
Justice Property Management Regulations, this definition includes items that
because of their inherent attractiveness and/or portability, are subject to a
high probability of theft or misuse and those items that contain sensitive
information or are sensitive in nature.

      The FBI defines accountable property as property that because of its
value or nature must be accounted for on an individual basis in the Property
Management Application. The FBI currently requires that accountable
property having an acquisition cost of $1,000 or more, and all firearms,
laptop computers, jewelry, central processing units, and secure



                                     - ii -
communications equipment be recorded in the Property Management
Application. Although there is no requirement to enter non-expendable
property valued at less than $1,000 into the Property Management
Application, at their discretion FBI division heads may establish policy for
tracking property valued at less than this threshold.

      We found that the FBI’s current policy on accountable property is
inadequate because it excludes property from the Property Management
Application that would constitute controlled personal property under the
Justice Property Management Regulations. For example, the FBI does not
currently mandate that items such as cameras, televisions, and
videocassette recorders be tracked in the Property Management Application
even though they fall under the definition of controlled personal property in
the Justice Property Management Regulations. While we found that four of
the nine property custodians at the BFD are maintaining their own tracking
systems for items such as digital cameras and tape recorders, these systems
do not contain the required elements of a property management system and
the property custodians do not perform physical inventories.

       To address these deficiencies, we recommend that the FBI amend its
definition of accountable property to mandate the tracking of certain
property items in the Property Management Application that cost less than
$1,000, for which tracking is currently discretionary.

Procurement and Receipt of Property

       We tested 30 procurement actions from FY 2003, representing 55
property items, to determine if the BFD had properly recorded accountable
property in the Property Management Application. We found no
discrepancies. However, while reviewing credit card purchases we found
that individual credit card bills were approved for payment without adequate
supporting documentation for the charges. We recommend that the BFD
ensure that requisition forms are completed and approved before each credit
card purchase and that they be adequately supported as to the amount and
necessity of the purchase.

     We also determined that items that should be included in the Property
Management Application might not have been added due to inadequate
segregation of duties between the ordering and receipt of property at the
BFD. Inadequate segregation of duties between the ordering and receipt of
property was a contributing factor as to why Stull’s property thefts at the
BFD went undetected for three years. Although supply technicians are
responsible for adding property to the Property Management Application
when it is received at the BFD, Stull was able to order and directly receive



                                     - iii -
     property without proper oversight. The BFD has modified its procedures
     with regard to photography equipment to strengthen controls, but has not
     done so in other property areas. We recommend that the appropriate
     supply technician first receive all new property.

     Location Testing and Completeness of Property Records

           In order to test whether the BFD could locate certain property items
     and produce them for inspection, we requested a universe of the property
     designated to the BFD in the Property Management Application. The data
     provided by FBI Headquarters from the Property Management Application
     contained 5,620 records of property located at the BFD. The databases
     maintained by the property custodians of the under $1,000 property in their
     control included a combined 6,071 property items that were not included in
     the Property Management Application.

            We selected statistical samples from each of the universes and
     requested that the BFD present these items to us for verification. As
     summarized in the following table, our results indicate that the BFD is more
     likely to find property listed in the Property Management Application than
     property tracked by the property custodians. Items listed as “$1,000 and
     Over” were in the FBI’s Property Management Application. Items listed as
     “Under 1,000” were not included in the Property Management Application.

                  BFD Property Universes and Results of OIG Testing
                                            Number of Sample           Not                 Could Not
          Property Area                                      Located
                                              Items    Size          Located               Determine
Total of $1,000 and Over Property                 5,620          221         219       0           2
Percentages of $1,000 and Over
                                                                            99%      0%          1%
Testing
Total of Under $1,000 Property                    6,071          354         294      45          15
Percentages of Under $1,000
                                                                            83%      13%         4%
Testing
Total Number of Property Items                   11,691          575         513      45          17
           Source: BFD property universes and Office of the Inspector General testing results

           Projecting our results to the Property Management Application
     population of 5,620 items, at least 17 of these property items (0.3 percent)
     would be unverifiable – that is, in the “could not determine” category.2
     Similarly, projecting to the population of 6,071 “under $1,000” items tracked
     by property custodians, the BFD would not be able to locate at least 570 of

           2
               Our statistical projections are at the 95 percent confidence level.




                                                   - iv -
these property items (9.4 percent) and at least 133 of these property items
(2.2 percent) would be unverifiable. In our judgment, by including
additional items in the Property Management Application, the BFD could
improve its ability to locate and control property. Our recommendation to
the FBI is that it amend its definition of accountable property to require that
additional items be tracked in the Property Management Application.

      As an additional test of how complete the BFD’s property databases
were, we physically selected 55 property items during walk-throughs of the
BFD and attempted to trace the items to the appropriate database system.
Forty-eight of the 55 items were valued at $1,000 or more. Each of these
items was in the Property Management Application as required. With regard
to the remaining 7 items, which had reported costs of under $1,000, two
items were in the separate inventory databases maintained by the property
custodians, but the other five were not.

Frequency and Results of Physical Inventories

       The Justice Property Management Regulations require the FBI conduct
a complete physical inventory of all capitalized property3 at least once per
year and a complete physical inventory of all controlled personal property at
least biennially. The FBI’s Accountable Property Manual provides a
description of the FBI’s inventory process that is in compliance with the
Justice Property Management Regulations. Since FY 2001, the BFD has
adhered to the requirements of the FBI and the Justice Property
Management Regulations for biennial and annual inventories and conducted
its most recent biennial inventory in FY 2003. In addition, because of the
photography equipment thefts, the BFD conducted a special inventory in that
property area in January 2003 and, as a result, developed a complete list of
all accountable and non-accountable property in the photography equipment
property area. The BFD provided copies of Report of Lost/Stolen Property
(FD-500) forms that corresponded to the 22 property items still listed in the
Property Management Application as lost, missing, or stolen since the 2003
biennial inventory, and it appeared that the BFD conducted adequate
searches for and reviews of circumstances for these missing items.

Disposal Testing

      We tested the BFD’s disposal of property for proper documentation and
timeliness. The FBI’s Accountable Property Manual includes a requirement
that once FBI Headquarters approves the disposal of an item of property, the

       3
        Capitalized property includes non-real property with an acquisition cost of $25,000 or
more; sensitive property includes such items as laptop computers and weapons.




                                            -v-
field office has 30 days to dispose of it. The BFD disposed of or identified as
excess 474 items since January 1, 2003. In order to determine whether the
BFD received the appropriate authorization to dispose of these items and
whether the items were disposed of in the provided amount of time, we
reviewed documentation for a judgmental sample of 47 items (10 percent).
We found minor exceptions in several areas but only one item that had not
yet been disposed of.




                                     - vi -
              CONTROLS OVER ACCOUNTABLE PROPERTY AT THE
                    BALTIMORE FIELD DIVISION OF THE
                   FEDERAL BUREAU OF INVESTIGATION

                                      TABLE OF CONTENTS
                                                                                                          Page
INTRODUCTION.......................................................................................... 1
    Background......................................................................................... 1
    Baltimore Field Division Property Management Procedures ......................... 3
    Audit Approach .................................................................................... 5
FINDING AND RECOMMENDATIONS .............................................................. 6
PROPERTY CONTROLS COULD BE IMPROVED .................................................. 6
    FBI Definition of Accountable Property is Inadequate ............................... 6
    Procurement and Receipt of Property .................................................... 9
         Property Management Application.................................................... 9
         Credit Card Purchases.................................................................... 9
         Segregation of Duties ...................................................................10
    Location Testing and Completeness of Property Records ......................... 10
         Results of Location Testing ............................................................11
         Results of Completeness Testing (Walk-Throughs) ............................16
    Frequency and Results of Physical Inventories ...................................... 17
    Disposal Testing .................................................................................18
    Conclusions........................................................................................19
    Recommendations...............................................................................20
APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY................................21
APPENDIX II – ROLES OF BALTIMORE FIELD DIVISION PROPERTY OFFICIALS .......
...............................................................................................................22
APPENDIX III – BALTIMORE FIELD DIVISION PROCEDURES DURING PROPERTY
LIFE CYCLE .............................................................................................. 23
APPENDIX IV – SAMPLE FD-281 (PROPERTY PASS) FORM ................................30
APPENDIX V – SAMPLE FD-369 (REQUISITION) FORM.....................................31
APPENDIX VI – SAMPLE FD-500 (REPORT OF LOST/STOLEN PROPERTY) FORM ...32
APPENDIX VII – FBI POLICY MEMORANDUM ESTABLISHING $1,000 THRESHOLD
.............................................................................................................. 33
APPENDIX VIII – STATISTICAL SAMPLING DESIGN AND COMPUTATION OF
ESTIMATES .............................................................................................. 42
APPENDIX IX – FBI RESPONSE TO THE DRAFT AUDIT REPORT .........................45
APPENDIX X – OIG SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT
.............................................................................................................. 49
                                   INTRODUCTION

       On July 7, 2003, Robert E. Stull, a former employee of the Federal
Bureau of Investigation (FBI) at the Baltimore Field Division (BFD) was
sentenced to one year in prison and ordered to pay restitution after pleading
guilty to theft of government property.4 As a result of a joint investigation
conducted by the Office of the Inspector General, the BFD, and the Maryland
United States Attorney’s Office, Stull admitted to stealing photography
equipment, valued at over $167,000, from the FBI between February 1999
and November 2002, and to selling the items on the online auction house
eBay. In his confession, Stull acknowledged stealing and then selling items
such as cameras, flash units, lenses, and film. In response to these events,
the Office of the Inspector General initiated an audit to assess the overall
effectiveness of the BFD’s property controls from procurement through
disposal.

       The BFD is one of 56 FBI field divisions and is located in Baltimore,
Maryland. The BFD’s area of coverage extends across Maryland and
Delaware. It maintains subsidiary offices, called resident agencies, in
smaller cities throughout both states. Among its law enforcement priorities,
the BFD cites counterterrorism, counterintelligence, and cyber crime. As
with most field divisions, the BFD is overseen by a Special Agent in Charge.
For fiscal year (FY) 2004, the BFD has a total budget of about $3.3 million
and currently employs approximately 400 people. As of January 3, 2004,
the BFD’s official property inventory contained 5,620 items, with a total
estimated acquisition cost of $22,835,160.

Background

       Stull began his career at the BFD in November 1990 as a Grade 4
Clerk. In January 1993, he became the BFD’s Relief Photographer and in
April 1994, he was promoted to Photographer. At the time of his arrest,
Stull was the BFD’s primary photographer. He had reached the Grade 8,
Step 5 level, and he was responsible for taking pictures and processing film.
Furthermore, as property custodian for photography equipment, Stull was
responsible for requisitioning and maintaining the BFD’s photography
equipment and supplies.

      In October 2002, another BFD employee reported to BFD management
that Stull was selling items with the FBI logo on eBay, and the other BFD
employee provided management with the name of the eBay account.

      4
          Stull was sentenced under 18 USC § 641.
Among the items listed for sale were: a BFD patch, an FBI September 11th
patch, and Kodak and Polaroid film. Based on this discovery, an
investigation was initiated and a grand jury subpoena was issued for eBay’s
records. The eBay records revealed that since 1999, Stull had opened at
least four accounts on eBay through which the majority of items sold had
been photography equipment and supplies, including cameras, lenses, flash
units, light meters, video recorders, film, photographic paper, and ink
cartridges. In addition, the eBay records reported the time periods the
accounts were open and the level of sales Stull reached for each account, as
follows:

   Account Name                   Time Period Open               Sales
  Residu             February 27, 1999 - July 6, 1999        $   10,211.41
  ambo209            April 30, 2000 - October 24, 2000           12,950.00
  Roberika           May 15, 2001 - August 8, 2001               29,203.00
  freefallo1         October 8, 2001 – November 2, 2001          30,947.00
  Total                                                      $ 83,311.41
      Source: Office of the Inspector General

       A comparison was performed of the items sold on eBay to the FBI
Requisition for Supplies and/or Equipment (FD-369) forms prepared by Stull.
From this analysis, a pattern was recognized as present since 1999 where
the items he requested through FD-369 forms were sold on eBay within
approximately two months. For example, in May 2001 Stull requested 36
Nikon flash units from FBI Headquarters. In June 2001, he sold one “Nikon
SB-28 flash (NEW IN THE BOX),” and 16 more by August 2001. Several
purchasers of the various items sold on eBay were contacted by the
investigators. Some of those purchasers still possessed the items and were
able to provide information, such as serial numbers, which identified the
items as FBI property.

       Based on these findings, Stull was arrested for theft of government
property on December 13, 2002. When presented with the evidence, Stull
acknowledged establishing each of the eBay accounts and admitted that he
had stolen all of the photography equipment and supplies sold on the
accounts from the BFD. To explain his crimes, Stull stated that he had been
experiencing financial problems for the previous three years, and began
selling items on eBay in 1999 to offset his debts. He noted that the first
items he sold on eBay were his own personal items, but as his debts
increased he began stealing items from the BFD to sell as well. Stull stated
that the Financial Manager did question him about the amount of money he
was spending, particularly on film, and that the Administrative Officer
questioned him when many photography items could not be located during




                                       -2-
the 2001 inventory. Stull stated that he responded to the Financial
Manager’s questions by telling her that the agents were using all of the film
and the Administrative Officer stopped questioning him when the inventory
period was over. Stull also stated that, for him, stealing from the federal
government was “easy” due to the “lack of checks and balances” in the
property control process.

      As part of the case, the investigators prepared a list of the items
stolen by Stull. This list contained a total of 168 entries, although some
entries represented more than one item. We analyzed the list to determine
the types of property stolen by Stull and found that the largest percentages
of items were cameras, camera flashes, and photographic accessories. The
complete results follow:

                         Items Stolen by Stull by Type
                                                 Number
       Description                                            Percent
                                                 Stolen
       Cameras or Camera Kits                            49      29.17
       Camera Lenses                                     13       7.74
       Camera Flashes                                    25      14.88
       Light Meters                                      14       8.33
       Photo Enlargers                                    1       0.60
       Film                                               4       2.38
       Printer Cartridges                                 1       0.60
       Film Holders                                      17      10.12
       Photographic Accessories                          33      19.64
       Still Video Players                                3       1.79
       Cassette Recorders                                 2       1.19
       Videocassette Recorders                            3       1.79
       Ballistic Vests                                    3       1.79
       Total Number of Entries                         168     100.00
              Source: FBI

     Stull pled guilty to theft of government property on July 7, 2003. He
was sentenced to one year and one day in prison, and three years probation,
and was ordered to pay $70,000 in restitution.

Baltimore Field Division Property Management Procedures

     The Justice Property Management Regulations and the FBI’s
Accountable Property Manual are the bases for many of the property




                                   -3-
procedures at the BFD.5 The Accountable Property Manual defines
accountable property as “[p]roperty which, because of its value or nature,
must be accounted for on an individual basis [in] the [Property Management
Application]”. The Property Management Application is an automated
property system that allows the FBI to track the location and history of
specific items.6 The system has features that allow tracking of distributed or
assigned property, and FBI policy requires that laptop computers and
firearms be charged out to specific individuals. Some of the property
custodians use property passes for additional categories of property as they
see fit. When the Property Management Application was launched in 1992,
the FBI instituted a threshold of $50, meaning that property with an
acquisition cost of $50 or more was to be included in the Property
Management Application. Today, this threshold stands at $1,000; however,
certain items of property are to be included in the Property Management
Application regardless of their cost. Specifically, according to FBI policy, all
firearms, jewelry, laptops, central processing units, and secured
communication equipment should be included in the system.7

      At the BFD, four supply technicians handle the addition of property
records to the Property Management Application. Their responsibilities
include creating and maintaining inventory records, providing for the care
and security of property, and identifying property as excess.

       In addition, the BFD has designated nine property custodians as
responsible for certain categories of personal property. Their responsibilities
include securing physical custody of the property, providing information
about the property to the supply technicians, and maintaining property
documentation. The property responsibilities of the property custodians are
collateral to their official duties; for example, the property custodian for
firearms is the firearm instructor at the BFD. The roles of other BFD


       5
       The Justice Property Management Regulations, dated August 6, 1998, implement or
supplement the Federal Property Management Regulations System, 41 CFR Chapter 101.
       6
         Section 128-1.5302 of the Justice Property Management Regulations states, in part,
that, "[b]ureaus shall establish personal property accountability systems that contain, at
minimum, the following elements: item description, manufacturer's serial number,
bureau-assigned property number or barcode number, acquisition date, acquisition cost,
location, and national stock number or locally-assigned stock number." Based on the
Property Management Application records provided, we determined that the Property
Management Application includes these required elements and thus meets with this Justice
Property Management Regulations requirement.
       7
         Throughout this report, we refer to property not listed in the Property Management
Application as “under $1,000” property.




                                         -4-
employees in the property management process are described in Appendix
II. The property custodians maintain control over the following nine
property areas: 1) automobiles, 2) computer equipment, 3) ET
(telecommunication and FM radio equipment)8, 4) firearms, 5) laboratory
equipment, 6) office equipment and fixtures, 7) photography equipment,
8) technical equipment, and 9) word processing equipment. The FBI gave
division heads the option of establishing policy to track property valued at
less than $1,000. While we did not find that the BFD had established such a
policy, we did find that four of the nine property custodians were tracking
property under their control valued at less than $1,000.

Audit Approach

      To determine the effectiveness of the BFD’s controls over accountable
property, we reviewed the FBI and BFD policies and procedures for
compliance with the Justice Property Management Regulations and for
adequate segregation of duties.9 We also conducted testing at the BFD in
the following areas to determine if procedures had been implemented:

      •        Procurement;
      •        Location testing and completeness of property records;
      •        Frequency and results of physical inventories; and
      •        Disposal.

        At the time of our audit, the BFD planned to relocate to a different
facility. Therefore, we observed but did not test physical security controls.
In addition, we determined that FBI Headquarters, not the BFD, is
responsible for ensuring that the disposals of property comply with federal
regulations, and accordingly we limited our testing in this area to the BFD’s
responsibilities.




      8
        The BFD uses the acronym ET to represent the term “electronics technician.” The
property area ET includes telecommunication and FM radio equipment.
      9
          See Appendix III for a more detailed description of the BFD’s property procedures.




                                          -5-
                  FINDING AND RECOMMENDATIONS

     PROPERTY CONTROLS COULD BE IMPROVED

     While controls over property tracked in the Property
     Management Application by the BFD appear adequate, we found
     certain conditions that leave property excluded from the system
     more susceptible to loss. We concluded that the FBI should
     expand its definition of accountable property to include
     additional items that meet the Justice Property Management
     Regulations’ definition of controlled personal property and should
     track these items in the Property Management Application. Our
     testing revealed that property currently excluded from the
     Property Management Application has a decreased chance of
     being located, even when tracked separately by a property
     custodian. Specifically, the BFD located about 99 percent of the
     items in our Property Management Application sample, but only
     83 percent of our under $1,000 sample. Furthermore, the BFD
     needs to ensure that items purchased with credit cards are
     delivered to the appropriate supply technician and not to the
     purchaser to ensure that items that meet the definition of
     accountable property are barcoded and recorded in the Property
     Management Application. As part of our review, we identified 22
     items that were not included in the Property Management
     Application but should have been based on the FBI’s $1,000
     threshold policy. In addition, credit card holders should provide
     documentation to the Administrative Officer that adequately
     supports each of their purchases before the Administrative
     Officer approves the bill for payment.

FBI Definition of Accountable Property is Inadequate

       The FBI’s Accountable Property Manual defines accountable property
as “Property which, because of its value or nature, must be accounted for on
an individual basis [in] the [Property Management Application].” Since
February 2002, FBI policy has identified the property that must be
accounted for in the Property Management Application as property with an
acquisition cost of $1,000 or greater. However, in our judgment, the FBI
needs to amend its definition of accountable property to mandate the
tracking of certain property items that cost less than $1,000, for which
tracking is currently discretionary. In its February 14, 2002, memorandum
that increased the property threshold for accountable property from $500 to
$1,000 (see Appendix VII), the Property Procurement and Management
Section of the FBI stated:




                                 -6-
                Although there is no requirement to enter into [the
                Property Management Application] non-expendable
                property valued at less than $1000, at their discretion
                division heads may establish policy for tracking property
                valued at less than this threshold. If a division head
                desires to track property valued at less than the threshold,
                such as [videocassette recorders], cameras, televisions,
                etc., different colored barcode labels should be used for
                identification purposes. The use of a barcode label
                different in color from that used for the tracking of
                accountable property will enable division personnel to
                discriminate between items which must as a matter of
                policy be inventoried bi-annually [(sic)], and those subject
                to discretionary inventory.

      During our audit, we found that the BFD adheres to the $1,000
threshold policy, and has chosen not to track under $1,000 property with the
suggested different colored barcodes.10 Four of the nine BFD property
custodians have developed separate databases outside of the Property
Management Application to track under $1,000 property. However, these
systems do not contain all of the elements required of a property
accountability system and none of the property custodians conduct physical
inventories of these items as required by the Justice Property Management
Regulations.11

      In our judgment, the FBI definition of accountable property excludes
items that the Justice Property Management Regulations indicate should be
accounted for as controlled personal property. Specifically, the Justice
Property Management Regulations require bureaus to “establish personal
property accountability systems . . . ., ”12 and defines controlled personal
property as:

       10
          The barcodes verified on under $1,000 items during our inventory testing were
Property Management Application barcodes that remained on items that had once been
included in the Property Management Application under previous thresholds.
       11
          The Justice Property Management Regulations require that personal property
accountability systems contain, at a minimum, item description, manufacturer's serial
number, bureau-assigned property number or barcode number, acquisition date, acquisition
cost, location, and national stock number or locally-assigned stock number. As previously
stated, the Justice Property Management Regulations require biennial physical inventory of
controlled personal property.
       12
            41 CFR (JPMR) § 128-1.5302.




                                          -7-
              [N]oncapitalized personal property that because of
              its nature must be subject to more stringent
              controls. Controlled personal property may or may
              not be recorded in a formal personal property
              accounting system. Controlled personal property
              includes, without limitation, property that: (1) [i]s
              leased by, in the custody of, or lent to or from [the
              Department of Justice]; (2) [d]ue to inherent
              attractiveness and/or portability, is subject to a high
              probability of theft or misuse; (3) [i]s warranted and
              requires knowledge of age and/or previous repair
              data when determining whether repair or
              replacement is appropriate; or (4) [c]ontains
              sensitive information or is sensitive in nature.
              Examples of sensitive property include weapons,
              hazardous products, surveillance and communication
              equipment, and property used for processing or
              storing classified information.13

     We believe that photography equipment, such as cameras, technical
equipment, such as televisions and videocassette recorders, and some
computer peripheral equipment, to name a few, fall under the Justice
Property Management Regulations definition of controlled personal property
and are thus required to be included in a personal property accountability
system regardless of cost and physically inventoried biennially.

      We reviewed the FBI’s reason for raising the Property Management
Application threshold from $500 to $1,000. In the February 14, 2002,
memorandum instituting the threshold change, the FBI stated that this
change was consistent with current Department of Justice policy and by
implementing it, the FBI would exempt nearly 154,000 items from future
physical inventories. The Section Chief in the Property Procurement and
Management Section at FBI Headquarters identified a 1994 policy
memorandum as the document as instituting the $1,000 threshold at the
Department of Justice. However, the 1994 memorandum stated that, even
with the introduction of a $1,000 threshold, the Department of Justice
“would continue to account for [items such as] televisions [and]
videocassette recorders . . .” because of “the susceptibility of converting
certain items to personal use.” In our judgment, the FBI should amend its



     13
          41 CFR (JPMR) § 128-1.5002(c).




                                       -8-
definition of accountable property to conform to Department of Justice
requirements.

Procurement and Receipt of Property

      To test procurement and receipt of property, we: 1) tested a sample
of procurement actions to determine if the purchased property was added to
the Property Management Application, 2) tested a sample of credit card
purchases to determine if the supporting documentation was adequate, and
3) reviewed the BFD’s procedures for ordering and receiving property for
adequate segregation of duties.

     Property Management Application

       We tested a sample of property procured by the BFD in FY 2003 to
determine whether these items were added to the Property Management
Application. We selected a judgmental sample of 10 requisition forms, 10
purchase orders, and 10 orders using telephonic numbers from FY 2003
property purchases.14 These 30 procurement actions represented a total of
55 items of property. For those items with an acquisition cost of $1,000 or
more, we requested a Property Management Application record to document
the item’s inclusion in the system. The Lead Supply Technician was able to
provide a Property Management Application record for all of the items with
acquisition costs of over $1,000. However, for those items with acquisition
costs of under $1,000, there was not enough unique information included on
the documents to identify the items in the separate databases maintained by
the property custodians. Therefore, we could not verify that these items
were included in any tracking system.

     Credit Card Purchases

      During our testing of credit card purchases, we found that the BFD
Administrative Officer was approving payment of individual credit card bills
without reviewing supporting documentation for the purchases. While FBI
Headquarters only requires cardholders to maintain a log of their purchases,
the BFD Financial Manager requires cardholders to complete and forward to
her an FD-369 (requisition) form for each credit card purchase. Our testing
revealed that not all cardholders complied with this requirement. According
to the FBI Purchase Card Procedures, the Administrative Officer is
responsible for approving individual bills and the Financial Manager is
responsible for reconciling the individual bill to the consolidated bill. The

      14
           The BFD uses telephonic numbers for undercover purchases. A telephonic number
is an identifying number assigned to expenses that are to be paid from case funds, rather
than general office funds.




                                       -9-
Administrative Officer expressed concern that he is approving the bills for
payment without knowing what items have been purchased or if such
purchases were approved in advance. In our judgment, the Administrative
Officer should receive, with each cardholder’s bill, the FD-369 form and
receipts that support the amounts on the bills.

     Segregation of Duties

       Segregation of duties in the property management process is
necessary to reduce the risk of error or fraud. We determined that a lack of
segregation of duties – specifically between ordering and receipt of
property – contributed to Stull’s thefts remaining undetected. When a BFD
employee orders an item using a credit card, the cardholder may appear as
the addressee on the package. In these cases, the employees that screen
deliveries of new property for security purposes may contact the cardholder
to retrieve the package instead of a supply technician. Therefore, the supply
technicians would not be aware that an item was received and should be
entered in the Property Management Application unless the purchaser
notified them.

      In addition, even though Stull was not a cardholder, he could obtain
equipment directly from the photography unit at FBI Headquarters using an
electronic communication.15 The BFD has taken steps to correct this
weakness by requiring BFD supervisory approval of photography equipment
requests and ensuring deliveries are received by the supervisor instead of
the property custodian.

Location Testing and Completeness of Property Records

       To determine whether the BFD could locate and produce for our
inspection property recorded in the Property Management Application, we
selected items listed in the Property Management Application and physically
verified them. We also conducted this testing on property lists maintained
by the four property custodians who track under $1,000 property. Finally, to
test the completeness of the Property Management Application and the
databases maintained by the property custodians, we selected property
items during office walk-throughs of the BFD and verified them to Property
Management Application property records and the property custodians’
databases.




       15
         According to the BFD Administrative Officer, in contrast to other property areas all
photography equipment is funded by the FBI Headquarters budget.




                                          - 10 -
    Results of Location Testing

      We requested a universe of the property designated to the BFD in the
Property Management Application. The data provided by FBI Headquarters
contained 5,620 Property Management Application records as of January 30,
2004. In addition, we obtained universes from the four property custodians
who maintain databases of the under $1,000 property in their control.
These databases included a combined 6,071 property items. To test the
BFD’s ability to locate these items, we selected statistical samples from each
of the universes below for review and asked the BFD to produce the items
for our inspection. We concluded that the BFD located about 99 percent of
the Property Management Application sample, but lower percentages of the
other samples. The number of items in each universe and each sample and
the results of our testing follow:




                                  - 11 -
                    BFD Property Universes and Results of
                    Office of the Inspector General Testing
                                         Number
                                                Sample        16   Not    Could Not
Property Area                               of         Located
                                                 Size            Located Determine17
                                          Items
                    Sample from Property Management Application
Property Management Application          5,620       221        219         0              2
Total of $1,000 and Over Property        5,620       221       219          0              2
Percentages of $1,000 and Over
                                                              99%       0%             1%
Testing
              Under $1,000 Sample from Property Custodians’ Databases
Photography Equipment                      789        46         44         2              0
Computers                                1,232        72         66         6              0
Technical Equipment                      2,579       150        108        32            10
ET - Radio Equipment                       471        27         20         4              3
ET - Data Communication Equipment          400        30         28         1              1
ET - Physical Security Equipment           600        29         28         0              1
Total of Under $1,000 Property           6,071       354       294        45             15
Percentages of Under $1,000
                                                              83%      13%             4%
Testing
                                    Total Sample
Total Number of Property Items         11,691        575       513        45             17
       Source: BFD property universes and Office of the Inspector General testing results.

       Based on these results, we concluded that an item’s exclusion from the
Property Management Application decreased the BFD’s chances of locating
the item, even when the item was included in a property custodian’s
separate inventory database. The details from our testing of the various
samples follow.

Property Management Application Sample

      From the universe of 5,620 property items assigned to the BFD in the
Property Management Application, we selected a statistical sample of 221
items. During our audit, the BFD’s supply technicians and property
custodians accounted for 219 of these items. They physically located and
presented 210 of the items, provided certifications for 8, and documented
that 1 additional item had been excessed. The remaining two items did not
       16
          We considered a property item to be “located” if we saw the item and verified either
a barcode or a serial number. We accepted certifications of an item’s existence when our
viewing of the item could have jeopardized an ongoing investigation or when the item was
physically inaccessible.
       17
          We classified a property item as “Could Not Determine” when the BFD physically
presented an item to us as the one selected in the sample, but the item presented contained
neither a barcode nor a serial number that could be verified.




                                         - 12 -
have barcodes or serial numbers, and we could not determine if the two
items presented to us were the items selected for verification.

      For the Property Management Application sample, we concluded that
the BFD was able to account for 219 of the 221 items in the sample
(99.1 percent). When projected to the population of 5,620 items, we are
95 percent confident that at least 17 of these property items (0.3 percent)
would be unverifiable. (Appendix VIII contains the details of our sampling
design.)

Under $1,000 Samples

       We also received property listings from the four property custodians
who maintain databases of the property in their control. The four property
areas covered were: 1) photography equipment, 2) computer equipment,
3) technical equipment, and 4) ET. The four areas of under $1,000 property
contained a combined total of 6,071 items of property. We then selected a
statistical sample of property from these items for testing. To provide
effective audit coverage of the 6,071 property items and to maintain a
manageable sample size, we designed a stratified random sample that
allowed for projection to the entire universe. However, the sample design
did not allow for projection to individual types of property.

      The stratified random sample included a total of 354 items. Based on
the test results described below, the BFD could not locate 46 of these 354
items. In addition, we could not determine whether an additional 15 of the
354 items were located because the items physically presented to us by the
BFD did not contain a verifiable barcode or serial number. Therefore, when
projected to the population of 6,071 items, we are 95 percent confident that
the BFD would not be able to locate at least 570 of these property items (9.4
percent) and that at least 133 of these property items (2.2 percent) would
be unverifiable.

     •     Photography Equipment Sample

      From the under $1,000 universe of 789 photography equipment items,
we selected a statistical sample of 46 items for the BFD to locate. The
supply technicians and the property custodian for photography equipment
accounted for 44 of these items. They physically located and presented 41
of the items, and provided certifications for an additional 2 items. For the
three remaining items, two camera lenses remain missing, but following
fieldwork, the property custodian determined that an agent who was
transferred to the Detroit Field Division took the third item – a camera –
with him. Although this item was not located within the BFD and there was



                                  - 13 -
no official documentation of the transfer, we concluded that the BFD was
able to successfully account for 44 of the 46 items in the sample
(95.7 percent).

      •     Computer Equipment Sample

      From the under $1,000 universe of 1,232 computer equipment items,
we selected a statistical sample of 72 items for the BFD to locate. The
supply technicians and property custodian for computer equipment
accounted for 66 of these items (91.7 percent). They physically located and
presented 50 items and provided documentation that 13 had been excessed,
and 3 were transferred out. The other six items remain missing. Among the
items missing were three computer monitors, one central processing unit,
one printer, and one tape drive.

      •     Technical Equipment Sample

       From the under $1,000 universe of 2,579 technical equipment items,
we selected a statistical sample of 150 items for the BFD to locate. The
supply technicians and the property custodian for technical equipment
accounted for 108 of these items (72.0 percent). They physically located
and presented 86 items, provided documentation that 3 were identified as
surplus, 6 had been destroyed, 1 had been transferred out to another
location, and 1 had been reported as lost or stolen. In addition, the property
custodian provided certifications for 11 items.

      The supply technicians and property custodian for technical equipment
also presented 10 items to us that they stated were the items in the sample;
however, these items had neither a barcode nor a serial number that we
could verify. Among these 10 items were a pinhole lens, a color camera,
and a set of binoculars. The other 32 items remain missing. Among the
items missing were cassette recorders, video cameras, a television monitor,
binoculars, and a videocassette recorder.

      •     ET (Telecommunication and FM Radio Equipment) Sample

      Finally, we tested a statistical sample of ET items for the BFD to
locate. Because of the manner in which the property custodian for ET tracks
the inventory in his database, we further subdivided the ET testing into three
property areas: 1) radio equipment, 2) data communication equipment, and
3) physical security equipment.




                                  - 14 -
Radio Equipment

      From the under $1,000 universe of 471 ET radio equipment items, we
selected a statistical sample of 27 items for the BFD to locate. The supply
technicians and property custodian for ET accounted for 20 of these items
(74.1 percent). They physically located 18 of the items and provided
documentation that 2 items had been excessed. However, another three
items, all of which were radio circuit lines, had neither a barcode nor a serial
number that we could verify.18 The other four items, including a radio
scanner and a radio charger, remain missing.

       Data Communication Equipment

      We selected a statistical sample of 30 items from the universe of 400
ET data communication equipment items for the BFD to locate. The supply
technicians and property custodian for ET accounted for 28 of these items
(93.3 percent). They physically located and presented 26 items in the
sample and provided certifications for an additional 2 items. However, one
item had neither a barcode nor a serial number that we could verify, and one
item, a converter, remains missing.

       Physical Security Equipment

       We selected a statistical sample of 29 items from the universe of 600
ET physical security equipment items for the BFD to locate. The supply
technicians and property custodian for ET accounted for 28 of these items
(96.6 percent). They physically located and presented 25 items, provided
certifications for 2, and documentation that 1 item had been transferred out
of the BFD. However, one item, a color camera, had neither a barcode nor a
serial number that we could verify.

Analysis of Under $1,000 Testing

      For all four property areas under $1,000 that we tested, we found that
the BFD has a decreased chance of locating property if it is excluded from
the Property Management Application, even if it is included in a property
custodian’s separate inventory database. We also identified items that were
not included in the Property Management Application even though the items
met the FBI’s definition of accountable property. Specifically, during our
development of the under $1,000 universes, we found 141 items with listed
acquisition costs exceeding $1,000 remaining in the ET list of radio

       18
         Although radio circuit lines are not strictly property, the property custodian included
these items in his database from which our sample was selected.




                                           - 15 -
equipment. We asked the Lead Supply Technician to review these items,
and he determined that 21 of the 141 items had actual acquisition costs
greater than $1,000 and therefore should be included in the Property
Management Application. The items included, among others, one hand-held
radio, four computer monitors, and eight remote consoles. The Lead Supply
Technician concluded that other offices had ordered at least 15 of the 21
items for the BFD, and that the purchase order was never provided to him.
Because we could not verify that purchases by other offices were the actual
cause of these omissions from the Property Management Application, the
Property Procurement and Management Section at FBI Headquarters should
investigate whether this issue is unique to the BFD or whether items ordered
on behalf of other divisions were also not included in the Property
Management Application.

      We identified three central processing units in the under $1,000
computer equipment database. As previously noted, all central processing
units should be included in the Property Management Application regardless
of cost. We determined that one central processing unit had been excessed,
another was missing, and the third should have been added to the Property
Management Application. The BFD could not provide an explanation as to
why this oversight occurred.

      Results of Completeness Testing (Walk-Throughs)

      We selected a judgmental sample of property currently in use at the
BFD to determine whether the items were included in the Property
Management Application. We selected a total of 55 items during
walk-throughs of the Baltimore office and the resident agencies for eight of
the nine property areas.19

       The supply technicians provided copies of Property Management
Application records for 48 of the 55 items selected. Of the remaining seven
items, all were reported to have acquisition costs of under $1,000.
According to the documentation provided, four of these items were once
included in the Property Management Application but were deleted when the
dollar threshold was increased to $1,000. The other three items, a camera
tripod, laserjet printer, and computer monitor, were not required to be
included in the Property Management Application based on their costs. Of
the seven under $1,000 items, we were only able to locate five in the
separate databases maintained by the property custodians.
       19
         We could not select any items in the word processing equipment property area
because, according to the Lead Supply Technician, there are no items of word processing
equipment listed in the Property Management Application or any items that the property
custodian considers worthy of tracking separately.




                                        - 16 -
      After we completed our location testing and walk-throughs, we
examined the frequency and results of the BFD’s most recent physical
inventories and tested the BFD’s disposal of property for proper
documentation and timeliness.

Frequency and Results of Physical Inventories

      The Justice Property Management Regulations and the FBI’s
Accountable Property Manual require the BFD to perform a complete physical
inventory of all capitalized property at least once every year and a complete
physical inventory of all controlled personal property at least once every two
years. We found that since FY 2001 the BFD has adhered to the FBI and
Justice Property Management Regulations’ requirements for inventories. It
conducted the most recent biennial inventory in FY 2003. In addition,
because of the thefts by Stull, the BFD conducted a special inventory of
photography equipment in January 2003, and as a result developed a
complete list of all accountable and non-accountable property in that area.

       The FBI uses scanner technology to complete the overall inventory,
and our review of the documentation of the 2003 inventory showed
adequate segregation of duties with regard to the physical inventory
process. The Property Management Application produces a report of the
results of the physical inventory. According to the Administrative Officer, at
the time of the 2003 biennial inventory, the Property Management
Application contained approximately 5,000 property items that were
assigned to the BFD. The Administrative Officer also stated that the BFD
was unable to locate about one percent of these items during that inventory.
We reviewed the documentation for the remaining 22 items (0.4 percent)
that could not be located during or since the 2003 biennial inventory. We
determined that the BFD conducted adequate searches for and reviews of
the circumstances surrounding these missing items.

       We also tested the BFD’s compliance with the FBI requirement that an
FD-500 form be submitted to FBI Headquarters when items are lost,
missing, or stolen. (See Appendix VI for a sample FD-500 form.) The BFD
provided copies of FD-500 forms that corresponded to the 22 property items
that were not located during or since the 2003 biennial inventory.20 The BFD
classified 2 items as stolen and 20 items as lost; none of the items were

       20
           Among the 22 items reported lost, missing, or stolen were: 3 videocassette
recorders, 2 radio frequency links, 2 microwave transmitters, 2 closed circuit television
lenses, and 1 camcorder, video scrambler, thermal imager, tape unit, portable radio, dialed
number recorder, digital audio recorder, digital camera, hand-held radio, microwave receiver,
laser-jet printer, Pentium central processing unit, and desktop microcomputer.




                                         - 17 -
identified as confidential property or as containing sensitive or classified
material. Based on these results, we concluded that the BFD complied with
the FBI FD-500 documentation requirement.

Disposal Testing

       FBI field divisions are responsible for informing FBI Headquarters that
an item is ready for disposal and for complying with the timeline and method
of disposal as instructed by FBI Headquarters. The Accountable Property
Manual includes a requirement that once FBI Headquarters approves the
disposal of an item of property, the field office has 30 days to dispose of it.
As described below, our testing in this area revealed that the BFD did not
fully comply with this 30-day requirement, but for valid reasons.

      We received a list from FBI Headquarters of 474 items that had been
disposed of or identified as excess by the BFD since January 1, 2003. In
order to determine whether the BFD received the appropriate authorization
to dispose of these items and whether the items were disposed of in the
provided amount of time, we reviewed documentation for a judgmental
sample of 47 items (10 percent). Our results are as follows:

                    Results of Disposal Testing at the BFD
Status of Items                Number      Comments
Disposed of:
  Timely                           14
  4 Days late                       5      Delay attributable to data entry.
  54 Days late                      3      Disposal ordered during annual inventory.
  74 Days late                     12      Disposal ordered during annual inventory.
  Total                            34
Administratively Deleted But       7       When items once included in the Property
Still in Existence                         Management Application no longer meet the
                                           FBI definition of accountable property because
                                           of a change in the dollar threshold, the
                                           Property Management Application lists the
                                           items as “disposed.”
Cannibalized                       3       Serviceable parts were removed from the item
                                           for use in the repair of other property or
                                           equipment.
Not Processed for Disposal          1
Disposal Date                       2      Available documents did not identify the
Indeterminable                             disposal date.
  Total items tested               47
       Source: Office of the Inspector General testing results.



      We found that the BFD did not begin processing 1 item for disposal
and did not actually dispose of another 7 of the 47 items. Rather, FBI



                                        - 18 -
Headquarters "admin deleted" these seven items from the Property
Management Application when the property threshold increased from $500
to $1,000 because the items’ acquisition costs were less than $1,000. The
Property Management Application system classifies these items as
"disposed" even though the items are still in use at BFD. We asked the Lead
Supply Technician about the delays in 20 of the 34 items that were disposed
of. He explained that for those items disposed of 4 days late, he had
disposed of the items before the deadline, but that FBI Headquarters did not
record the disposition until after the 30 days had passed. In addition,
concerning the 54 and 74-day delays, the Lead Supply Technician stated
that the electronic communications from FBI Headquarters that ordered the
disposal of these items arrived while the 2003 inventory was being
conducted. The Lead Supply Technician stated that not only did the supply
technicians not have enough time to dispose of the items because of their
involvement with the inventory, but also that the items themselves were
included in the inventory because they were still active records in the
Property Management Application. Therefore, these items could not be
disposed of until the inventory was over. Based on the explanations
provided, we concluded that the BFD’s delay in disposing of several items of
property during FY 2003 was reasonable.

Conclusions

      We concluded that the FBI should expand its definition of accountable
property to require that additional items be tracked in the Property
Management Application that meet the definition of controlled personal
property in the Justice Property Management Regulations. We believe that
items such as cameras, televisions, and videocassette recorders fall under
the Justice Property Management Regulations’ definition of controlled
personal property and are thus required to be included in a personal
property accountability system and physically inventoried biennially.

      We found that items excluded from the Property Management
Application have a decreased chance of being located, even when tracked in
a property custodian’s separate inventory database. During our location
testing, the BFD was able to locate about 99 percent of the items in the
Property Management Application sample, but only about 83 percent of the
items in the under $1,000 sample. When projecting to the Property
Management Application population of 5,620 items, we are 95 percent
confident that at least 17 of these property items (0.3 percent) would be
unverifiable. Similarly, projecting to the population of 6,071 under $1,000
items tracked separately by property custodians, we are 95 percent
confident that the BFD would not be able to locate at least 570 of these




                                 - 19 -
property items (9.4 percent) and that at least 133 of these property items
(2.2 percent) would be unverifiable.

       We also identified items that the BFD did not record in the Property
Management Application even though the items met the FBI’s definition of
accountable property. Specifically, we identified 21 items that were being
tracked by the ET property custodian that had acquisition costs of $1,000 or
more, as well as 1 central processing unit listed in the computer equipment
property custodian’s database that had not been listed in the Property
Management Application. In addition, we found a lack of segregation of
duties between ordering and receipt of credit card purchases that may
circumvent the entry of items into the Property Management Application and
that individual credit card bills were approved for payment without adequate
supporting documentation for the charges.

      Finally, we determined that since FY 2001, the BFD has adhered to the
FBI and Justice Property Management Regulations’ requirements for biennial
and annual inventories. We also determined that while the BFD’s disposal of
property may not have been timely, the BFD had acceptable reasons for the
delays.

Recommendations

We recommend that the FBI:

  1. Amend the FBI policy for entering items into the Property Management
     Application by mandating the tracking of under $1,000 property that
     meets the Justice Property Management Regulations definition of
     controlled personal property.

  2. Determine if the following weaknesses exist in other FBI field divisions,
     and if so, take appropriate corrective action.

We recommend that the BFD:

  3. Ensure that all new property, regardless of its addressee, be received
     first by a supply technician.

  4. Ensure that FD-369 forms are completed and approved before each
     credit card purchase.

  5. Ensure that the Administrative Officer receives adequate supporting
     documentation from each cardholder that supports the amount of the
     charges on his or her bill.



                                  - 20 -
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to assess the overall effectiveness of
the BFD’s property controls from procurement through disposal. Since FBI
Headquarters, not the BFD, is responsible for ensuring that disposals of
property meet federal regulations, we limited our testing in this area to the
BFD’s compliance with the FBI Headquarters requirements. In addition, the
BFD informed us of their impending relocation and, therefore, we observed
physical security control, but performed no testing in this area. We
conducted our audit in accordance with Government Auditing Standards and
included such tests as were considered necessary to accomplish our
objectives.

      As part of our audit, we conducted interviews with various officials
from FBI Headquarters and the BFD, including the Section Chief and Unit
Chief from the FBI’s Property Procurement and Management Section, the
BFD Administrative Officer, the BFD Lead Supply Technician, and the nine
BFD property custodians. We performed our fieldwork at the Baltimore,
Maryland, and satellite offices of the BFD.

      We obtained an understanding of the FBI and the BFD’s property
management system and procedures by reviewing pertinent documents,
including the Justice Property Management Regulations, the FBI’s
Accountable Property Memorandum, and FBI policy memoranda. In
addition, we reviewed Property Management Application property records
and the property databases maintained by four property custodians. We
also reviewed Stull’s case file and met with an investigator from the joint
investigation of Stull’s property thefts from the BFD.

      In addition, we performed testing at the BFD to assess its inventory
controls. Specifically, we tested to determine whether the BFD could locate
items of inventory, both from Property Management Application listings and
from property listings maintained by property custodians. We also tested to
determine whether property procured in various manners was added to the
Property Management Application and whether property currently in use at
the BFD had been entered into the Property Management Application, if
appropriate. In addition, we tested the BFD’s credit card reconciliation
process to verify the presence of documentation for the charges. For the
inventory testing, our samples were statistically selected. In all other cases,
our samples were judgmentally selected.




                                   - 21 -
                                                             APPENDIX II

              ROLES OF BFD PROPERTY OFFICIALS

Accountable Property Officer – At the BFD, the Accountable Property
Officer is the Special Agent in Charge. According to the Accountable
Property Manual, the Accountable Property Officer’s responsibilities include
coordinating the property management program within the BFD, providing
required leadership and guidance to ensure effective internal control
procedures are in compliance with the requirements of the FBI, ensuring
property records are created, and ensuring the property management
program within the BFD is in compliance with the FBI’s property
management program.

Administrative Officer – The Administrative Officer is responsible for the
day-to-day management of administrative activities at the BFD, which
includes approving FD-369 forms. The Administrative Officer is also the
Approving Official for payment of purchase credit card charges and is
responsible for verifying these charges.

Financial Manager – The Financial Manager supervises the BFD’s supply
technicians and may also approve FD-369 forms. In addition, the Financial
Manager reconciles the individual purchase credit card statements to the
BFD’s master statement and designates to which BFD accounts the
payments are to be charged against.

Property Custodian - The BFD has designated nine property custodians as
responsible for certain categories of personal property at the BFD. Their
responsibilities include securing physical custody of the property, providing
information about the property to the supply technicians, and maintaining
property documentation. These property custodians maintain control over
the following nine property areas: 1) automobiles, 2) computer equipment,
3) ET, 4) firearms, 5) laboratory equipment, 6) office equipment and
fixtures, 7) photography equipment, 8) technical equipment, and 9) word
processing equipment. The property responsibilities these property
custodians have are collateral to their official duties.

Supply Technician - At the BFD, four supply technicians handle the
addition of new property to the Property Management Application. Their
responsibilities include creating and maintaining inventory records, ensuring
maximum utilization of available property, providing for the care and
security of property, and identifying property as excess.




                                  - 22 -
                                                           APPENDIX III

 BALTIMORE FIELD DIVISION PROCEDURES DURING THE
               PROPERTY LIFE CYCLE

Procurement

       According to the Administrative Officer, any BFD employee can request
that a certain item of property be purchased, but only certain employees can
actually procure an item and obligate funds. Specifically, the BFD has 20
purchase credit cardholders, with card limits ranging from $10,000 to
$100,000, and three contracting officers. The BFD’s four supply technicians
are among the 20 purchase credit cardholders, as are two of the contracting
officers. The Administrative Officer is both a purchase cardholder and a
contracting officer. According to FBI policy, only the supply technicians or
the contracting officers may purchase equipment; the other cardholders can
only purchase supplies. The Financial Manager confirmed that this policy is
in use at the BFD.

       Credit cards may be used for overt transactions up to $2,500, but
purchase orders should be used to procure items with costs from $2,501 to
$25,000. In addition, the BFD uses telephonic numbers for undercover
purchases. A telephonic number is an identifying number assigned to
expenses that are to be paid from case funds, rather than general office
funds. According to the Financial Manager, a telephonic number is generally
required for maintenance or service charges of $500 or more, and for
equipment purchases of $1,000 or more. However, there is no maximum
dollar amount for a telephonic number. In addition, a confidential credit
card may be used for undercover purchases. The procurement procedures
for these purchases are the same, except that the purchases are made
under a fictitious name.

      The starting point for many property purchases at the BFD is the
FD-369 form. (Refer to Appendix V for a sample FD-369 form.) According
to the BFD’s Lead Supply Technician, in order to procure an item, the
employee seeking the purchase completes an FD-369 form. The FD-369
form is reviewed initially by a supply technician and then forwarded to either
the Financial Manager or the Administrative Officer for approval. If the
FD-369 form is signed and approved by either of these officials, the
purchase is made.

      In addition, according to the Administrative Officer, the BFD only uses
third-party drafts for recurring commercial payments or when a vendor does



                                  - 23 -
not accept credit cards. The BFD requires that a separate form, besides the
FD-369, be prepared to request a third-party draft.

Receipt of Property

      All property that is received at the BFD is delivered to a trailer located
in the parking lot to be x-rayed and screened for dangerous components.
Once the package is deemed safe, it is placed near the supply room or, if the
item is too large, a supply technician is called to retrieve it. The Lead
Supply Technician stated that once property, equipment, or supplies arrive
at the BFD, the supply technician who reviewed the FD-369 form physically
receives and inspects an item, adds it to the Property Management
Application, if necessary, and delivers the item to the employee who ordered
it.

       The practice described by the Lead Supply Technician complies with
the FBI’s procedures for receiving property. Section 5-1 of the Accountable
Property Manual states, in part, that, "[i]t is the responsibility of each
[s]upply [t]echnician or property custodian to receive all shipments of
supplies, furniture, and equipment consigned to his/her cost center(s).
When the property has been received, the [s]upply [t]echnician or property
custodian must thoroughly inspect the shipment to ensure that the items
received are correct, that shipping damage has not occurred and to
determine if a complete or partial shipment was received." However, the
Lead Supply Technician also acknowledged that when an employee orders an
item with a purchase credit card, the cardholder may appear as the
addressee on the package. In these cases, the employees in the x-ray
trailer will usually contact the purchaser, instead of a supply technician, to
retrieve the package.

       The Lead Supply Technician also stated that property can be received
by the BFD through forfeitures, gifts, or as abandoned property; however,
he stated that very little property has been added to the Property
Management Application through gifts.21 The Lead Supply Technician
explained that for forfeitures and abandoned property, FBI Headquarters
sends him an electronic communication to notify him that the property is
arriving. An employee in the BFD’s forfeiture section will actually receive the
property; however, the Lead Supply Technician stated that someone from
the forfeiture section will bring the property to him to have a barcode affixed
and the item added to the Property Management Application. The Lead
Supply Technician does not believe he even receives an electronic
communication when the item’s value is under $1,000.
       21
        The Lead Supply Technician could only recall one gift in the last 10 years—a
computer.




                                        - 24 -
Placement into Inventory

        If the acquisition cost of the property received meets or exceeds the
$1,000 threshold amount, a supply technician will place an FBI barcode on
the item and manually enter the barcode number and the item’s identifying
information into the Property Management Application. If the acquisition
cost does not exceed $1,000, a barcode will not be placed on the item, and
it will not be entered into the Property Management Application. In either
event, the supply technician will then deliver the item to the employee who
ordered it. Confidential property is also included in the Property
Management Application, but no barcodes are affixed to this property.
These items are specifically identified as confidential in the Property
Management Application and can only be queried in the Property
Management Application through their serial numbers.

      Presently, three of the four supply technicians assigned to the BFD are
located at the Baltimore office while the other supply technician is located at
the Calverton, Maryland resident agency. Except for the Calverton resident
agency, any property designated for a resident agency is affixed with
barcodes and entered into the Property Management Application at the
Baltimore office. According to the Lead Supply Technician, all of the supply
technicians have edit and query mode in the Property Management
Application; however, only FBI Headquarters can delete a record from the
Property Management Application. The property custodians have query
mode in the Property Management Application only.

Tracking of Under $1,000 Property

       According to the Unit Chief in the Property Procurement and
Management Section at FBI Headquarters, there are no standardized
procedures for tracking under $1,000 property and the manner in which this
property is tracked is left up to the Accountable Property Officer in the field
divisions. At the BFD, the Accountable Property Officer is the Special Agent
in Charge. Based on our interviews with the nine property custodians, only
four property custodians track the under $1,000 property in their control at
all. The property areas with under $1,000 tracking are: 1) photography
equipment; 2) computer equipment, 3) technical equipment; and 4) ET.
These four property custodians maintain Microsoft Access databases of all of
the property in their control, not just the property with an acquisition cost of
less than $1,000.

      According to the property custodian for photography equipment, his
Microsoft Access database was established approximately two years ago,



                                   - 25 -
specifically in response to Stull’s thefts. Only the property custodian, his
supervisor, the relief photographer, and the Administrative Officer have
write access to the database, and changes can only be made at the property
custodian’s computer.

       In contrast, the property custodian for technical equipment established
his tracking system in Microsoft Excel about six years ago. He has since
converted his database to Access and named it the Baltimore Technical
Management System. The property custodian explained that the reason an
item is included in the Baltimore Technical Management System has more to
do with its operational purpose than its dollar value. For example, a
customized or special-order camera with an acquisition cost of $100 would
be included in the Baltimore Technical Management System. On the other
hand, a power supply with an acquisition cost of $200 would not be included
in the Baltimore Technical Management System because it is available
commercially. Six technical agents, including the property custodian, have
access to the Baltimore Technical Management System.

Distribution

       According to the Lead Supply Technician, the nine property custodians
are responsible for the equipment and property that they charge out to
employees. The Accountable Property Manual does not describe procedures
for distributing or assigning out property and only includes instructions for
using the property charge-in and charge-out features in the Property
Management Application to assign an item of property to a specific person.
However, FBI policy requires that laptop computers and firearms be charged
out to specific individuals in the Property Management Application and that
property pass (FD-281) forms be maintained for these items. (Refer to
Appendix IV for a sample FD-281 form.)

      In addition, during our audit, and particularly during our inventory
review, we found that the property custodians have their own policies for
when to prepare an FD-281 form. For example, the property custodian for
firearms stated that he issues FD-281 forms for all weapons, but the
property custodian for ET only prepares FD-281 forms for hand-held radios.
In addition, the property custodian for computer equipment stated that he
prepares FD-281 forms for both desktop and laptop computers while the
property custodian for photography equipment stated that he prepares
FD-281 forms for everything. The property custodian for photography
equipment added that he even prepares FD-281 forms, which assign
property to him, for the items that are in his photography equipment storage
area.




                                  - 26 -
      According to the Lead Supply Technician, to assign property included
in the Property Management Application to an employee, the property
custodian would prepare an FD-281 form, sign the form, have the employee
who is checking out the equipment sign the form, and then send the form to
a supply technician. The supply technician will enter the information into the
Property Management Application, and make a copy of the FD-281 for his
records. The original will be returned to the property custodian.

Inventorying

      Section 128-1.5202 of the Justice Property Management Regulations
describe the Department of Justice policy regarding the physical inventory of
personal property. This section states, in part, that:

       (a) Bureaus shall ensure that a complete physical inventory is
       taken of all capitalized property at least once per year.
       (b) Bureaus shall ensure that a complete physical inventory is
       taken of all controlled personal property. Such inventories shall
       be performed at least biennially, but may be done on a cyclical
       basis. (c) For internal control purposes, employees participating
       in physical inventories shall not be the same individuals who are
       responsible for such property; however, property management
       personnel and custodians may assist in locating, identifying and
       reconciling the physical inventory process . . . (d) Each time
       there is a change in [Property Management Officer] or [property
       custodian], a physical inventory of controlled and capitalized
       property shall be completed for the assigned area, and the new
       individual shall sign a statement verifying the accuracy of the list
       and assuming formal accountability. Appropriate action shall also
       be taken to relieve the departing individual of accountability for
       missing items.

      Section 14-4 of the Accountable Property Manual provides an inventory
schedule that is in compliance with the Justice Property Management
Regulations and provides similar limitations on who can perform an
inventory. According to Unit Chief in the Property Procurement and
Management Section at FBI Headquarters, FBI inventories are performed on
a biennial cycle. The first year, 100 percent of capitalized and non-
capitalized property is inventoried, and the second year, only capitalized and
sensitive property is inventoried. 22 Also according to the Unit Chief,
property with an acquisition cost of less than $1,000 is not included in the
       22
         Capitalized property includes non-real property with an acquisition cost of $25,000
or more; sensitive property includes such items as laptop computers and weapons.




                                         - 27 -
biennial inventory. Moreover, according to the Lead Supply Technician,
these items are also never inventoried separately at the BFD.

        The BFD’s most recent 100-percent biennial inventories occurred in
1998, 2001, and 2003. In addition, the Lead Supply Technician stated that
in January 2003, the BFD conducted an inventory of only photography
equipment as a result of Stull’s arrest. This inventory consisted of a
100-percent review of the photography equipment listed in the Property
Management Application. However, because the BFD did not have a
universe of the under $1,000 photography equipment to compare to, the
Lead Supply Technician acknowledged that they essentially only created a
list of the remaining under $1,000 photography equipment.

       During the inventory, the four supply technicians assist other
employees because, as described in the Justice Property Management
Regulations, the supply technicians are not allowed to conduct the inventory
themselves.23 The inventory begins with the assigned employees traveling
around the Baltimore office and the resident agencies, using portable
scanners to scan the Property Management Application barcodes affixed to
items. Afterwards, a Property Management Application report, which lists
the items not scanned, is run. The assigned employees then go back to
search for the items previously missed. This process continues until the
deadline date set for the inventory by FBI Headquarters. After this date, the
Lead Supply Technician must send a Report of Lost/Stolen Property
(FD-500) to FBI Headquarters for each of the items not located. (Refer to
Appendix VI for a sample FD-500 form.)

Disposal

      The Lead Supply Technician also described the BFD’s procedures for
disposal of property. He stated that when an item has been identified as
surplus, a property custodian will bring the property to him and he will send
an electronic communication to notify FBI Headquarters. He then waits for
FBI Headquarters to tell him how to dispose of the property. During that
time, the item is stored in an area of the supply room, which only he and the
other supply technicians frequent, but to which others do have access. The
Lead Supply Technician added that there is no approval process at the BFD
for the disposal of an item. The property custodian simply brings the item to


      23
         The Lead Supply Technician provided a copy of the certifications of the 12
employees who conducted the 2003 biennial inventory to document that these employees
were not supply technicians or property custodians. Based on these documents, we
concluded that the BFD complied with this Justice Property Management Regulations
requirement.




                                       - 28 -
the Lead Supply Technician or notifies him of its location if the item is too
large to move.

       If an item is disposed of, this status is documented in the Property
Management Application. Once an item is marked as disposed of in the
Property Management Application, it will no longer appear on the list of
items to be inventoried. In addition, according to the Unit Chief in the
Property Procurement and Management Section at FBI Headquarters, her FBI
Headquarters unit is responsible for authorizing the BFD to dispose of
property included in the Property Management Application, but property that
falls below the $1,000 threshold is solely under the control of the
Accountable Property Officer. Furthermore, the Accountable Property
Manual includes a requirement that once FBI Headquarters approves the
disposition of an item of property, the field office has 30 days to dispose of
it.




                                   - 29 -
                              APPENDIX IV

SAMPLE FD-281 (PROPERTY PASS) FORM




              - 30 -
                              APPENDIX V

SAMPLE FD-369 (REQUISITION) FORM




             - 31 -
                               APPENDIX VI
SAMPLE FD-500 (REPORT OF LOST/STOLEN
           PROPERTY) FORM




               - 32 -
                          APPENDIX VII

   FBI POLICY MEMORANDUM
ESTABLISHING $1,000 THRESHOLD




           - 33 -
- 34 -
- 35 -
- 36 -
- 37 -
- 38 -
- 39 -
- 40 -
- 41 -
                                                                                     APPENDIX VIII

     STATISTICAL SAMPLING DESIGN AND COMPUTATION OF
                        ESTIMATES
      The statistical sampling universe consisted of 11,691 elements (Total
number of Property Items.) This universe was composed of two
sub-universes: (a) “Under-$1,000 Property” of 6,071 elements, and (b)
“Over-$1000 Property,” or accountable property, containing 5,620 elements.
Two different sampling designs were employed for these two sub-universes.
When testing, each element was tested for a characteristic, which we term
as a discrete variable involving nominal measure (refer to the body of the
Audit Report for a description of the audit tests conducted).

Under-$1,000 Property

      We employed a stratified random sampling design to provide effective
coverage and to obtain precise estimates of the test statistics for the
under-$1,000 inventory. We estimated totals for two types of exceptions in
this sub-universe. Our conservative estimates of lower limits, on 95 percent
confidence intervals for the test statistic of total number of type 1 exceptions
(“could not locate property”) is 570 and that of type 2 exceptions (“could not
determine”) is 133. The estimates were computed using the formula (A)
given below.

                    The notation and the formulae are as follows:

N The number of elements in the sampling sub-universe
N The number of elements in stratum h
         h

n The number of elements sampled in stratum h
     h

n = ∑n             h
                        h

                            1   If the ith sampled item in the stratum h tested, found to be a jth type
                                     exception, for j=1 or 2.
yh             =
         ij

                            0      Otherwise



Thus               yh ∈ {0 , 1}
                       ij
                                   for each i and j

∑y
 j
              ij   =1              for each i




                                                        - 42 -
 f       =   n h
                             The sampling fraction in the stratum h
     h
             N   h


For stratum h


                             ∑ yh
              pˆ         =   i
                                          ,                   qˆ        = 1−   pˆ                    for j= 1 or 2
                                     ij

                    hj
                              n  h
                                                                   hj               hj



For total


             Yˆ j            Estimate of the total number of exceptions of type j


                                                                                 ∑ N pˆ
             Yˆ j = N pˆ j st
                                                                                                     h       hj
                                                        Where             pˆ j =         h
                                                                               st
                                                                                  ∑N         h
                                                                                                         h




         ν ( Yˆ j ) = N 2 ν ( pˆ j )          st




                                                                                               ˆ qˆ
                                                                                    (                )p
                                                                               2
                                                                        ⎛ Nh ⎞
                                     v⎛⎜      pˆ j st ⎞⎟⎠ =   ∑         ⎜    ⎟ 1−
                                                                                                          hj       hj
             Where                                                                           f
                                       ⎝                      h         ⎝ N ⎠                   nh
                                                                                                               h




Lower limit on the 95% confidence interval for the estimates                                                            Yˆ j   are given by:




             Yˆ j − 2 ν Yˆ j     ( )                                     for j=1 or 2                                          (A)




                                                                                    - 43 -
Over-$1000 Property

      We employed a random sampling design for testing and to obtain
estimates of the test statistic of the accountable property sub-universe. We
estimated totals for one type of exceptions in this sub-universe (“could not
determine”). Estimate of lower bound on 95 percent confidence interval for
the test statistic of total number of exceptions is 17. The estimate was
computed using the formula (B) given below.

             The notation and the formulae are as follows:

N            The number of elements in the sampling sub-universe


n            The number of elements sampled

a            The number of exceptions found in the sample

α = 5% = 1 − 95%             and       α = α L + αU

ˆ and A
A     ˆ            Respectively lower and upper 95% confidence limits obtained from solving the
 L      U
following equations.


          ⎛Aˆ   ⎞⎛ N − A
                       ˆ     ⎞
          ⎜ U   ⎟⎜       U   ⎟
          ⎜     ⎟⎜           ⎟
     j =a ⎜     ⎟⎜ n − j     ⎟
          ⎝j    ⎠⎝           ⎠ = α
     ∑j =0       ⎛N⎞
                                   U

                 ⎜ ⎟
                 ⎜⎜ ⎟⎟
                  ⎝n ⎠



         ⎛Aˆ ⎞⎛     ˆ ⎞
         ⎜ L ⎟⎜ N − AL ⎟
         ⎜ ⎟⎜          ⎟
    j =n ⎜   ⎟⎜ n − j ⎟
         ⎝ ⎠⎝
           j           ⎠ ≤ α
    ∑
    j =a      ⎛ ⎞
                N
                             L                                 (B)
              ⎜ ⎟
              ⎜⎜ ⎟⎟
               ⎝n ⎠




                                                      - 44 -
                                APPENDIX IX

FBI RESPONSE TO THE DRAFT AUDIT REPORT




                - 45 -
- 46 -
- 47 -
- 48 -
                                                            APPENDIX X

        OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT
Recommendation Number:

1.   Resolved. The FBI agreed to amend its policy for entering property
     items into the Property Management Application once the Justice
     Property Management Regulations, which are currently under revision,
     are finalized. This recommendation can be closed when we receive
     documentation that the Justice Property Management Regulations
     have been officially revised and that the FBI’s current, or revised,
     policy meets with the regulations’ requirements.

2.   Resolved. According to the FBI, the Property Procurement and
     Management Section of the FBI is scheduled to conduct field audits of
     the credit card program in FY 2005, which will include testing of
     FD-369 forms and for adequate supporting documentation of charges.
     This recommendation can be closed when we receive documentation of
     the results of these field audits as well as documentation that any
     deficiencies found have been addressed through additional training.

3.   Resolved. The BFD stated that it has already implemented this
     recommendation. Further, the BFD stated that it will reiterate this
     policy in a memorandum to be sent to all employees by October 15,
     2004, and at its division-wide conference to be held later this year.
     This recommendation can be closed when we receive a copy of this
     BFD policy memorandum.

4.   Resolved. The BFD stated that it has amended its procedures to
     require credit card holders to have their FD-369 forms approved by
     their immediate supervisor before submitting them to the Financial
     Manager. The BFD also stated that it will formalize this change and
     provide a copy of its revised procedures to FBI Headquarters by
     October 15, 2004. This recommendation can be closed when we
     receive a copy of the BFD’s revised procedures.

5.   Resolved. The BFD suggested that we revise the recommendation to
     refer to “the Administrative Officer (or other appropriate management
     official),” as opposed to only the Administrative Officer. We agree with
     the BFD that the credit card holder’s immediate supervisor would be in
     a better position to assess the appropriateness of the credit card
     charges. However, we have not amended the recommendation



                                 - 49 -
because FBI policy identifies the Administrative Officer as the
Approving Official at field divisions. Therefore, although the
Administrative Officer may choose to rely on the immediate
supervisors to review the FD-369 forms and supporting documentation
against the credit card statements, the Administrative Officer still
maintains overall responsibility for reviewing and approving the
division’s credit card charges. This recommendation can be closed
when we receive a copy of the BFD’s revised procedures.




                           - 50 -
